                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A-09030021                                                                Page 1 of 1



     We received an allegation of intellectual theft from the complainant. I The complainant alleged
     that the subjects' (a PI and a co-PI) NSF awarded proposal,2 contained ideas taken from one of
     the complainant's earlier NSF proposals. 3 At our request, the complainant provided additional
     information related to the ideas he suspected as having been taken from his work.

     Our review found no evidence of similar text in the proposals. We determined that the ideas as
     presented in the subjects' NSF proposal were not unique to the complainant. Both subjects had
     well-established research and publication records in this area. Additionally, our review of NSF's
     databases showed neither subject received a copy ofthe complainant's proposal/award through
     NSF.

     This case is closed and no further action will be taken.




                                                          (




    I (redacted).
    2 (redacted).
    3 (redacted).
